Record Press Inc., 229 West 36th Street, New York, N.Y. 10018·
Tel No.: (212) 619-4949 · Fax No. (212) 608-3141
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

86830

SS:

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and
is over 18 years of age.
That on the 23rd day of April 2021 deponent served 3 copies of the within
PETITION FOR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDEX NEXT BUSINESS DAY
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Phone: (202) 514-2217
Email: SupremeCtBriefs@USDOJ.gov
Joshua Waldman
U.S. Department of Justice
Civil Division, Appellate Staff
950 Pennsylvania Avenue, N.W., Room 7232
Washington, D.C. 20530-0001
Phone: (202) 514-0236
Email: Joshua. Waldman@usdoj.gov
I, Howard Daniels, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on April 23, 2021, pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have been served.

dL~d)~·
Howard Daniels

Sworn to before me on
April 23, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366
Qualified in Kings County
Commission Expires November 10, 2023

Case Name: Merchant v. Mayorkas
Docket/Case No.

